<html>
<title> - COUNTERINTELLIGENCE AND INSIDER THREATS: HOW PREPARED IS THE DEPARTMENT OF HOMELAND SECURITY?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


COUNTERINTELLIGENCE AND INSIDER THREATS: HOW PREPARED IS THE DEPARTMENT 
                         OF HOMELAND SECURITY?

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

                           Serial No. 114-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
24-382 PDF                      WASHINGTON : 2017                        
_________________________________________________________________________________________                               
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 
                                 
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                  John L. Dickhaus, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Hon. Francis X. Taylor, Under Secretary, Office of Intelligence 
  and Analysis, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Col. Richard D. McComb, Chief Security Officer, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement.......................................     8
Rdml. Robert P. Hayes, Assistant Commandant for Intelligence, 
  U.S. Coast Guard, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................     8

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, NBC4 Washington.......................................    19
  Article, Bloomberg News........................................    22

 
COUNTERINTELLIGENCE AND INSIDER THREATS: HOW PREPARED IS THE DEPARTMENT 
                         OF HOMELAND SECURITY?

                              ----------                              


                        Wednesday, July 13, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Katko, Hurd, Higgins, and 
Vela.
    Also present: Representative Jackson Lee.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony from 
the Department of Homeland Security regarding 
counterintelligence and insider threat programs.
    I would like to welcome my good friend, Mr. Higgins, 
Ranking Member of the subcommittee, and express my appreciation 
to the witnesses who are here today on this vital topic. I also 
want to express my appreciation for your flexibility. As you 
know, we had to postpone this meeting from its previously 
scheduled date, and I really appreciate you accommodating our 
schedule. So thank you very much.
    At the outset of today's hearing, I want to stress that the 
subject matter is sensitive, and after consultation with the 
Ranking Member and the Department, I will move to close the 
hearing at some point after the public statements and some 
initial questions. We will reconvene in a Classified setting to 
continue the hearing. To that end, if other Members arrive 
before we move the hearing, I would ask them to consider their 
questions and reserve any that are sensitive for the closed 
portion.
    Today we find our Nation confronting a complex external 
threat picture that ranges from ISIS, al-Qaeda and its 
affiliates, to traditional foes, such as Russia, Iran, and 
China. Earlier this year, General Clapper, the Director of 
National Intelligence, said, ``Unpredictable instability has 
become the new normal and this trend will continue for the 
foreseeable future.''
    Compounding this danger, there have been a series of 
appalling events over recent years involving trusted 
individuals working inside our Government who damaged National 
security or committed tragic acts of violence.
    Foreign intelligence services and transnational criminal 
organizations dedicate years of time and financial resources to 
develop an asset with the access that an insider like Bradley 
Manning, Edward Snowden, Aldrich Ames, and Robert Hanssen 
possessed.
    Information illegally released by WikiLeaks and Snowden's 
treacherous acts highlight the link between counterintelligence 
and the need to spot insider threats before they cause grave 
risk to National security and put lives at risk.
    The Department of Homeland Security has recently 
experienced a number of troubling cases where trusted insiders 
have carried out violent acts or have been arrested for having 
unauthorized weapons at work. A DHS employee was arrested in 
early June when he was found carrying a gun inside DHS 
headquarters. I know the case is on-going and the individual's 
intent is not known, but the case does raise serious questions. 
The public court documents definitely raise concerns that he 
may have intended to, ``commit an act of workplace violence.''
    Yesterday, there was another case at DHS headquarters where 
a contractor was discovered with a gun. If reports are 
accurate, this is the second case in a little over a month of 
employees discovered through random checks with weapons. I know 
the witnesses will agree, this requires immediate attention by 
the Department to protect its work force.
    In May, an officer with the Federal Protective Service 
system murdered his wife and several other people.
    The subcommittee is holding this hearing to review DHS's 
counterintel and insider threat programs. With over 100,000 
employees holding security clearances and significant 
responsibilities for the country's border, cyber, and maritime 
security, DHS represents a prime target for the intelligence 
collection efforts of our enemies.
    Unauthorized disclosures of Classified information, whether 
deliberate or unwitting, represent a significant threat to 
National security, the very nature of modern communications and 
the reliance on electronic data storage and transfer, as well 
as DHS's information-sharing leadership role with State, local, 
and Tribal partners, adds complexity to the challenge and 
requires thoughtful programs to educate employees to mitigate 
the threat.
    The subcommittee wants to hear how the Department is 
developing robust and holistic counterintelligence and insider 
threat programs to defend against threats both virtual and 
physical. We also seek to examine the partnership DHS has 
developed within the agency and across the Government to 
leverage best practices. We must determine what actions the 
Department can take to prevent these threats by proactively 
identifying and intervening when necessary, to protect DHS, its 
work force, and the country.
    I want to thank our distinguished panel for being here 
today. Your input is very valuable in showing the benefits of 
strong counterintel and insider threat programs extend beyond 
DHS, but to the work force as well, by preserving security and 
safety and allowing DHS to fulfill its vital homeland security 
mission.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             July 13, 2016
    Today we find our Nation confronting a complex external threat 
picture that ranges from ISIS, al-Qaeda and its affiliates, to 
traditional foes such as Russia, Iran, and China. Earlier this year, 
the Director of National Intelligence said, ``unpredictable instability 
has become the new normal and this trend will continue for the 
foreseeable future.''\1\
---------------------------------------------------------------------------
    \1\ Director of National Intelligence (DNI) James Clapper, 
testifying before the Senate Armed Services Committee, 2016 Worldwide 
Threats Hearing, February 9, 2016, official DNI Twitter account, 
available at: https://twitter.com/odnigov/status/697145988406972420.
---------------------------------------------------------------------------
    Compounding this danger, there have been a series of appalling 
events over recent years involving trusted individuals working inside 
our Government who damaged National security or committed tragic acts 
of violence.
    Foreign intelligence services and transnational criminal 
organizations dedicate years of time and financial resources to develop 
an asset with the access that an insider like Bradley Manning, Edward 
Snowden, Aldrich Ames, and Robert Hanssen possessed.
    Information illegally released by Wikileaks and Snowden's 
treacherous acts highlight the link between counterintelligence and the 
need to spot insider threats before they cause grave damage to National 
security and put lives at risk.
    The Department of Homeland Security has recently experienced a 
number of troubling cases where trusted insiders have carried out 
violent acts or have been arrested for having unauthorized weapons at 
work.
  <bullet> A DHS employee was arrested in early June when he was found 
        carrying a gun inside DHS Headquarters. I understand that the 
        case is on-going and the individual's intent is not yet known 
        but the case does raise serious concerns. The public court 
        documents definitely raise concerns that he may have intended 
        ``to commit an act of workplace violence.''\2\
---------------------------------------------------------------------------
    \2\ Scott McFarlane, ``Feds Investigating Whether Employee was 
Plotting Attack on Homeland Security Officials'', NBC News Washington, 
June 21, 2016, available at: http://www.nbcwashington.com/
investigations/Feds-Investigating-Whether-Employee-Was-Plotting-Attack-
on-Homeland-Security-Officals-383852591.html.
---------------------------------------------------------------------------
  <bullet> Yesterday there was another alarming case at DHS 
        headquarters where a contractor was discovered with a gun. If 
        reports are accurate, this is the second case in a little over 
        a month of employees discovered through random checks with 
        weapons. I know that the witnesses will agree that this 
        requires immediate attention by the Department to protect its 
        workforce.
  <bullet> In May, Eulalio Tordil, an officer with the Federal 
        Protective Service (FPS), murdered his wife and several other 
        people.
    The subcommittee is holding this hearing to review DHS's 
counterintelligence and insider threat programs. With over 100,000 
employees holding security clearances and significant responsibilities 
for the country's border, cyber, and maritime security, DHS represents 
a prime target for the intelligence collection efforts of our enemies.
    Unauthorized disclosures of Classified information, whether 
deliberate or unwitting, represent a significant threat to National 
security. The very nature of modern communications and the reliance on 
electronic data storage and transfer, as well as DHS's information-
sharing leadership role with State, local, and Tribal partners, adds 
complexity to the challenge and requires thoughtful programs to educate 
employees to mitigate the threat.
    The subcommittee wants to hear how the Department is developing 
robust and holistic counterintelligence and insider threat programs to 
defend against threats both virtual and physical. We also seek to 
examine the partnerships DHS has developed within the agency and across 
the Government to leverage best practices. We must determine what 
actions the Department can take to prevent these threats by proactively 
identifying and intervening when necessary to protect the DHS, its 
workforce, and the country.
    I would like to welcome our distinguished panel. Your input today 
is very valuable in showing that the benefits of strong 
counterintelligence and insider threat programs extend beyond the DHS 
enterprise, but to the workforce as well, by preserving safety and 
security, and allowing DHS to fulfill its critically important homeland 
security mission.

    Mr. King. With that, I recognize the Ranking Member of the 
subcommittee, the gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to thank Chairman King for holding this 
hearing. I would also like to thank the witnesses for 
participating in today's hearing.
    Many of the issues that come before this committee are and 
have been mainstays in the public discourse since the terrorist 
attacks of September 11. However, the security clearance 
process and protection of our Classified networks and 
information arguably did not become permanently affixed to our 
National and international security conversations until May 
2013. That is when we learned that former NSA contractor Edward 
Snowden leaked the details of Classified programs to the 
British newspaper The Guardian.
    The sheer volume of the information shared by Snowden 
brought many issues to the forefront of our National security 
conversations. Since the leak, Congress and the public have 
questioned if an outside contractor should have vetted his 
security clearance or it was a duty that should have rested 
squarely with the hands of the Federal employees. We have 
questioned if Snowden should have had access to such sensitive 
information in massive volumes.
    Then, later that same year, we learned that the same firm 
that vetted Edward Snowden also vetted the Navy Yard shooter 
Aaron Alexis. On September 16, 2013, Alexis, a civilian 
contractor, opened fire at the Navy Yard here in Washington, 
DC--literally, within walking distance of where we sit today. 
In the subsequent investigation, we learned that Alexis failed 
to disclose information about felony charges and a Federal 
personnel report had no information about his previous arrests.
    In May of this year, a Federal Protection Services 
employee, Officer Tordil, who had held a TS and SCI clearance 
since November 2015, shot and killed his estranged wife outside 
a high school in Maryland, then later killed two more people 
outside a mall and grocery store in Maryland.
    All of these incidences have raised concerns that we will 
discuss today. Had a strong insider threat program been in 
place, NSA authorities would have been alerted to massive 
amounts of information being transferred by Snowden for public 
distribution. Continuous evaluations of Aaron Alexis may have 
flagged his arrest and felony charges.
    While I understand the limitations of insider threat and 
counterintelligence programs, I also see the value in having 
such programs today. I also look forward to expanding the 
conversation to consider the role right to privacy plays in 
these programs in securing the country. Finding this balance is 
difficult, but today I hope to learn what the Department of 
Homeland Security is doing to advance their insider threat and 
counterintelligence programs. I look forward to the robust 
discussion with our witnesses today.
    I yield back.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             July 13, 2016
    Many of the issues that come before this committee are and have 
been mainstays in the public discourse since the terrorist attacks of 
September 11. However, the security clearance process and protection of 
our Classified networks and information, arguably, did not become 
permanently affixed to our National and international security 
conversations until May 2013.
    That is when we learned that former NSA contractor Edward Snowden 
leaked the details of Classified programs to the British newspaper The 
Guardian. The sheer volume of information shared by Snowden brought 
many issues to the forefront of our security conversations.
    Since the leak, Congress and the public have questioned if an 
outside contractor should have vetted his security clearance or if it 
was a duty that should have rested squarely in the hands of Federal 
employees. We have questioned if Snowden should have had access to such 
sensitive information in massive volumes.
    Then, later that same year, we learned the same firm that vetted 
Edward Snowden also vetted the Navy Yard shooter, Aaron Alexis. On 
September 16, 2013, Alexis, a civilian contractor, opened fire at Navy 
Yard here in Washington, DC, literally within walking distance of where 
we sit today. In the subsequent investigation we learned that Alexis 
failed to disclose information about felony charges and a Federal 
personnel report had no information about his previous arrests.
    In May of this year, Federal Protective Services employee Officer 
Tordil, who had held a TS/SCI clearance since November 2015, shot and 
killed his estranged wife outside of a high school in Maryland. Then, 
later killed two more people outside a mall and grocery store in 
Maryland. All of these instances have raised concerns that we will 
discuss today.
    Had a strong Insider Threat program been in place, NSA authorities 
would have been alerted to massive amount of information being 
transferred by Snowden for public distribution. Continuous evaluations 
of Aaron Alexis may have flagged his arrests and felony charges.
    While I understand the limitations of Insider Threat and 
Counterintelligence programs, I also see the value in having such 
programs. Today, I also look forward to expanding the conversation to 
consider the role ``the right to privacy'' plays in these programs and 
securing the country.
    Finding this balance is difficult, but today I hope to learn what 
the Department of Homeland Security is doing to advance their Insider 
Threat and Counterintelligence programs.

    Mr. King. I thank the Ranking Member. Any other Members of 
the subcommittee, whether here or not, may submit statements 
for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 13, 2016
    In a time where threats and issues regarding domestic and foreign 
terrorists, emergency preparedness, immigration, and aviation seem to 
be at the forefront of our thoughts and concerns, the issues 
surrounding how we secure the information that informs all of those 
polices is often forgotten.
    In the nearly decade and half since the 9/11 attacks, both the 
committee and security officials have worked together to increase the 
security workforce and information needed to better secure our 
homeland.
    One of the primary recommendations from the 9/11 Commissioners 
encouraged the United States to improve its intelligence gathering and 
information-sharing activities.
    This resulted in more employment positions that allow access to 
Classified information, which requires security clearances.
    While it is clear that the sharing of Classified and Unclassified 
information between our domestic and international partners is 
imperative to keep us all safe, it also presents a number of issues.
    Of those issues, the one we will discuss at length today is the 
increase in opportunities for bad actors to exploit our workforce and 
information through sabotage, theft, espionage, and fraud. Bad actors 
commit these acts in order to gain competitive advantages for economic 
and political reasons all over the world.
    Another issue is the massive proliferation of original and 
duplicative Classified material and the exponential growth in the 
number of individuals with security clearances.
    Both present significant homeland and international security 
challenges.
    An estimated 4.5 million people held security clearances in fiscal 
year 2014.
    The costs of security clearance investigations vary significantly, 
depending on clearance levels.
    However, in fiscal year 2014 the minimum cost for a Top-secret 
clearance investigation was almost $4,000, while the minimum cost of a 
Secret clearance was $3,000.
    Additionally, the cost of maintaining the security classification 
system across the Federal Government was estimated at more than $11 
billion for fiscal year 2013.
    Within that amount, the estimate for the cost of protecting and 
maintaining Federal Classified information was more than $4 billion.
    To say we have made a significant financial investment in our 
Classified security systems is an understatement.
    However, none of those financial resources matter as much as the 
continued investment that needs to be made to monitor those systems.
    In order to address the continuing increase of Classified 
information, positions, and systems needed to protect Classified data, 
I will reintroduce legislation titled the ``Clearance and Over-
Classification Reform and Reduction Act'' or ``CORRECT Act.''
    While the CORRECT Act addresses Government-wide security clearance 
processes, in order to advance more focused legislation, I also 
introduced H.R. 3505, ``Department of Homeland Security Clearance 
Management and Administration Act.''
    This act makes specific classification reforms within the 
Department of Homeland Security.
    Subsequently, that bill has passed our committee and the House with 
bipartisan support.
    If enacted, H.R. 3505 would make DHS a leader among Federal 
agencies with respect to security clearance and position designations 
practices.
    I believe that access to National security information is a 
privilege that should be regarded with the highest integrity and it is 
important for the Department to be good stewards of this information by 
managing and monitoring its workforce and data.
    I look forward to hearing from our witnesses today regarding the 
best practices and considerations undertaken to further the programs 
directed at counterintelligence and insider threats to the Department 
of Homeland Security and its personnel.

    Mr. King. We are pleased to have a very distinguished panel 
of witnesses before us today on this vital topic. All the 
witnesses are reminded, their written testimony will be 
submitted for the record.
    We will hear first from Under Secretary Frank Taylor. The 
Honorable Frank Taylor has served as the under secretary for 
intelligence and analysis and as the chief intelligence officer 
for the Department since April 2014.
    Prior to joining DHS, Secretary Taylor served with great 
distinction in the U.S. military for 31 years, rising to the 
rank of brigadier general. He has also served in numerous 
senior positions in the State Department, focused on 
counterterrorism and security of U.S. personnel, and he has 
also worked in the private sector.
    Most importantly, of course, he holds a bachelor's and 
master's degree from the University of Notre Dame. Go Irish.
    I now recognize General Taylor.

  STATEMENT OF HONORABLE FRANCIS X. TAYLOR, UNDER SECRETARY, 
    OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    General Taylor. Thank you, Chairman King, Ranking Member 
Higgins. I would start with ``Go Irish'' given our shared 
lineage with the University of Notre Dame. I want to thank you 
and the Members of the committee for the opportunity to appear 
with my colleagues here today.
    The Department faces a range of threats from foreign 
intelligence services, non-state entities like terrorist groups 
and transnational criminal organizations, and insider threats. 
Based on overt intent, capabilities, and broad operational 
scope, Russia and China continue to be the leading state 
intelligence threats to the United States and our interests, 
including the Department of Homeland Security.
    Similar to foreign intelligence threats, terrorist groups 
and TCOs continue to enhance their human, technical, and cyber 
intelligence capabilities recruiting human sources and 
conducting physical and technical surveillance of DHS 
operations. Additionally, we are very concerned that the threat 
from insiders disclosing sensitive U.S. Government information 
will also continue.
    As the Department's counterintelligence executive, I am 
leading the implementation of the new National 
Counterintelligence Strategy and building out a unified 
Department counterintelligence program. I am also the 
Department's senior information-sharing and safeguarding 
executive responsible for overseeing all Classified 
information-safeguarding efforts in our Department.
    We recently completed a Classified assessment of foreign 
intelligence threats to the Department and the broader homeland 
security enterprise. This will serve as our baseline 
assessment, and we will re-evaluate this assessment every year 
to track trends and update it with significant changes in the 
CI threat environment.
    Thanks to Congress, Congressional support, we have 
significantly enhanced our counterintelligence and threat 
programs. I&A's Counterintelligence Division has Department-
wide responsibilities. Our objectives are to deepen our 
understanding of the external and internal threats; deter, 
detect, and disrupt these threats; safeguard sensitive 
information from exploitation; and to protect our Nation's 
networks from foreign intelligence threats, such as the 
disruption, exploitation, or theft of sensitive information, 
including personally identifiable information.
    We are embedding counterintelligence officers in each of 
the Department's operational components and within the 
Department's most at-risk headquarters components. We are also 
leveraging the existing resources, like the U.S. Coast Guard 
Counterintelligence Service, and are partnering with CI 
personnel from across the Federal Government to enhance the 
Department's CI program.
    These are just a few of the steps we are taking to meet 
these threats so the Department can continue its work securing 
the country and fulfilling our border security, immigration, 
travel security, and other homeland security missions.
    Our Insider Threat Program has made great progress 
implementing Executive Order 13587. For this fiscal year, our 
technical monitoring solution audited 33 million actions on our 
enterprise Classified networks. Of these, 215,000 required 
manual review by our analysts, of which 72 required further 
investigation. During the previous 2 fiscal years, the Insider 
Threat Program also identified 162 violations and provided 
support to 15 counterintelligence and internal security 
investigations.
    Chairman King, Ranking Member Higgins, Members of the 
committee, thank you again for the opportunity to appear before 
you to have this very important discussion. I look forward to 
your questions.
    [The joint prepared statement of General Taylor, Colonel 
McComb, and Rdml. Andersen* follows:]
---------------------------------------------------------------------------
    * Rdml. Robert P. Hayes, Assistant Commandant for Intelligence, 
U.S. Coast Guard, U.S. Department of Homeland Security testified on 
behalf of Rdml. Andersen.
---------------------------------------------------------------------------
  Joint Prepared Statement of Francis X. Taylor, Richard McComb, and 
                            Steven Andersen
                             June 23, 2016
    Chairman King, Ranking Member Higgins, and distinguished Members of 
the committee, thank you for the opportunity to appear before you today 
to discuss the Department of Homeland Security's (DHS) efforts to 
address Counterintelligence and Insider Threat. We look forward to 
providing our joint perspective on the full range of 
counterintelligence and insider threats we face as a Department.
                       counterintelligence threat
    DHS continues to face a complex foreign intelligence threat 
environment. In recent decades, the U.S. Government has made 
extraordinary strides in adapting to the changing fiscal, 
technological, and threat environment. However, the challenges of 
keeping up with the threat have provided opportunities for foreign 
intelligence entities to expand their scope of collection and 
operations against the U.S. Government, including at DHS. There also 
continues to be significant damage done by insiders who engage in 
unauthorized disclosures.
    In the 2016 National Counterintelligence Strategy, President Obama 
characterized the counterintelligence threat as ``daunting'' and one 
that ``seeks to undermine our economic strength, steal our most 
sensitive information, and weaken our defenses.'' On a daily basis, 
foreign intelligence entities, including non-traditional actors such as 
terrorist groups and transnational criminal organizations, use human 
and technical means, both openly and clandestinely, to steal U.S. 
National security information that is of vital importance to our 
security. The interconnectedness of systems and emerging technologies 
provide our adversaries with novel ways to steal valuable information 
from the U.S. Government, academic institutions, and businesses--
oftentimes from the safety of a computer thousands of miles away. As 
the cyber intrusions against the Office of Personnel Management (OPM) 
illustrated to millions of Government employees, Federal agencies 
continue to remain at significant risk of being targeted by foreign 
adversaries.
    Director of National Intelligence (DNI) James Clapper assessed \1\ 
that the leading threat of intelligence collection on U.S. interests is 
and will continue to be Russia and China, based on their overt intent, 
capabilities, and broad operational scope. Other state actors in Asia 
and Latin America pose local and regional counterintelligence threats 
to U.S. interests. In addition, Iranian and Cuban intelligence and 
security services continue to view the United States as their top 
priority for intelligence collection. The DNI further assessed that 
penetrating and influencing the U.S. National decision-making apparatus 
and the intelligence community (IC) will remain primary objectives for 
foreign intelligence entities.
---------------------------------------------------------------------------
    \1\ James Clapper, Statement for the Record, ``Worldwide Threat 
Assessment of the US Intelligence Community,'' February 9, 2016, http:/
/www.intelligence.senate.gov/sites/default/files/wwt2016.pdf.
---------------------------------------------------------------------------
    International terrorist groups and transnational organized crime 
organizations continue to operate and strengthen their intelligence 
capabilities utilizing human, technical, and cyber means. Similar to 
state actors, these non-state entities successfully recruit human 
sources and conduct physical and technical surveillance of their 
targets, with increasing sophistication, in order to evade detection 
and capture.
    Finally, we continue to believe that unauthorized disclosures of 
sensitive U.S. Government information are and will remain a threat for 
the foreseeable future. The interconnectedness of information 
technology systems exacerbates this threat.
            counterintelligence strategy and implementation
    DHS is implementing the National Counterintelligence Strategy of 
the United States of America 2016. As a result of the broader 
intelligence transformation that the Office of Intelligence and 
Analysis has undertaken in the last year, I have made integrating 
counterintelligence into the broader DHS mission and our components' 
world-wide operations one of my top priorities. To emphasize the 
growing importance of counterintelligence activities, we realigned I&A 
Counterintelligence Division to directly report to the I&A front office 
to reflect its Department-wide responsibilities.
    We continue to develop a holistic Counterintelligence Program 
across the Department, leveraging the Homeland Security Intelligence 
Council to drive integration of counterintelligence activities across 
the DHS Intelligence Enterprise. Our objectives are to:
  <bullet> Deepen our understanding of the threats posed by foreign 
        intelligence entities and insider threats to DHS;
  <bullet> Detect, deter, and disrupt these threats through proactive 
        training and awareness campaigns and effective investigative 
        efforts;
  <bullet> Safeguard sensitive information from exploitation by 
        identifying the Department's most critical assets and 
        implementing enhanced protective measures; and
  <bullet> Support Departmental efforts to protect our Nation's 
        networks from foreign intelligence efforts to disrupt, exploit, 
        or steal sensitive information, including personally 
        identifiable information.
    To help coordinate this effort, we created a Counterintelligence 
and Security Board, co-chaired by the DHS counterintelligence director 
and the DHS chief security officer to better integrate and align 
component counterintelligence and security programs. This board helps 
synchronize the Department's counterintelligence efforts, insider 
threat programs, foreign access and visitor management, and related 
counterintelligence and security activities.
    As part of the effort to integrate counterintelligence into 
component missions and operations, I&A Counterintelligence Division is 
embedding experienced Counterintelligence Officers in each of the 
operational components and highest risk headquarters offices. These 
Counterintelligence Officers perform myriad functions, including:
  <bullet> Assisting DHS component leadership with their efforts to 
        protect DHS personnel, programs, and information from external 
        and internal threats;
  <bullet> Conducting comprehensive foreign intelligence threat and 
        awareness briefings, including foreign travel briefings and 
        debriefings for DHS personnel traveling to high-threat 
        countries;
  <bullet> Assisting with periodic Counterintelligence Program 
        Compliance Reviews; and
  <bullet> Creating a culture of CI awareness through training.
    I&A's Counterintelligence Division recently began Departmental 
counterintelligence capability assessments and program reviews to 
identify gaps requiring additional resources and prioritize existing 
resources. The assessments and reviews examine which DHS operations are 
most vulnerable to foreign intelligence entities, and provide the 
information necessary to make decisions on defensive 
counterintelligence operations to counter the foreign intelligence 
entity threat.
    The Counterintelligence Division also produces all-source 
intelligence analysis of foreign intelligence threats to DHS personnel, 
operations, technology, and the broader Homeland Security Enterprise, 
including our State, local, Tribal, territorial, and private-sector 
partners. I&A recently completed a Classified counterintelligence 
threat assessment covering the last 3 years. This assessment, which 
serves as our baseline, will be updated annually to track trends and 
significant changes in the counterintelligence threat environment.
    As a member of the Committee on Foreign Investment in the United 
States (CFIUS), DHS conducts analysis to support the ODNI-led National 
Security Threat Assessments. If a National Security Agreement or other 
risk mitigation agreement is put in place, DHS counterintelligence 
analysts assess the threat to support DHS CFIUS Compliance Monitoring--
the process through which the U.S. Government continuously tracks, 
evaluates, and enforces CFIUS mitigation measures.
    DHS counterintelligence also supports Team Telecom, comprised of 
the DHS, Department of Justice (DOJ), and Department of Defense (DoD). 
Team Telecom reviews applications to the Federal Communications 
Commission (FCC) when there is disclosable foreign ownership and the 
potential National security, law enforcement, and public interest 
concerns. Our threat assessment informs Team Telecom's recommendations 
to the FCC.
    We also recognize that much of the DHS workforce and the broader 
Homeland Security Enterprise does not handle Classified information and 
is not always aware of foreign intelligence entity threats or the 
relevance of counterintelligence to their work. We work to educate the 
workforce on their counterintelligence responsibilities.
  <bullet> In July 2013, I&A's Counterintelligence Division published 
        an Unclassified finished intelligence product for our Federal, 
        State, and local partners who host foreign delegations and 
        tours on potential indicators of foreign collection techniques. 
        The product highlighted ``Topics of Concern'' and ``Behaviors 
        of Concern'' personnel should be aware of that might raise a 
        red flag and encouraged them to report suspicious activity.
  <bullet> We have also conducted significant outreach following the 
        breach of personnel information from the compromise of OPM 
        databases and the potential threats stemming from that incident 
        to educate the workforce and our stakeholders on how they might 
        be targeted, and encouraged them to report suspicious activity.
    To enhance and our counterintelligence program, we are forging 
strong partnerships within DHS and are partnering with 
counterintelligence elements across the U.S. Government.
              u.s. coast guard counterintelligence service
    The U.S. Coast Guard's (USCG) Counterintelligence Service serves as 
a model for our components. Established in 2004, the USCG 
Counterintelligence Service provides defensive counterintelligence 
support to USCG personnel and units hosting foreign visitors or 
traveling overseas. Given the USCG's unique maritime mission and 
frequent international engagements, establishing this capability has 
proven crucial to protecting USCG personnel from foreign intelligence 
entity collection attempts and serves as the cornerstone for further 
development of the Counterintelligence Service's capabilities.
    The USCG Counterintelligence Service engages in counterintelligence 
operations and investigations with partner agencies, and provides its 
personnel with both on-line and in-person threat awareness training. 
The USCG also maintains an internal website that hosts insider threat 
reference material, as well as a portal employees can use to report 
insider threat concerns.
    The USCG Counterintelligence Service has increased analytic 
production tailored to the current threat environment, specifically 
with products related to countering foreign intelligence entities and 
transnational organized crime collection efforts targeting the USCG.
    Most recently, in support of the USCG's Western Hemisphere Strategy 
and the DHS Southern Borders and Approaches Campaign, the USCG 
Counterintelligence Service initiated a pilot program to integrate 
Counterintelligence Service Agents with DoD Force Protection 
Detachments, supporting the increased USCG presence in foreign 
countries.
                         insider threat program
    With more than 115,000 Federal employees who have access to 
Classified National security information, implementing Executive Order 
(EO) 13587 \2\ and the President's National Policy and Minimum 
Standards for Executive Branch Insider Threat Programs is the 
Department's top information safeguarding priority. Established 
pursuant to EO 13587, the DHS Insider Threat Program is a Department-
wide effort to protect Classified National security information from 
unauthorized disclosure. The purpose of the program is to identify, 
detect, deter, and mitigate the unauthorized disclosure of Classified 
information. The DHS Chief Security Officer serves as the Department's 
senior official responsible for the day-to-day management and oversight 
of the Insider Threat Program.
---------------------------------------------------------------------------
    \2\ EO 13587 ``Structural Reforms to Improve the Security of 
Classified Networks and the Responsible Sharing and Safeguarding of 
Classified Information.''
---------------------------------------------------------------------------
    We have made tremendous strides maturing our program to address 
insider threats to Classified information and we expect to meet the 
administration's mandate to make our insider threat program fully 
operational by the end of the calendar year, including the deployment 
of monitoring technology on all of our Classified computer networks. 
This includes the Secret-level Homeland Secure Data Network, which 
provides Classified connectivity to our 23 Federal agency subscribers 
and nearly all State and Local Fusion Centers.
    Significantly, the USCG became the first Insider Threat Program in 
the Executive branch to achieve ``Full Operating Capability'' status as 
assessed by the National Insider Threat Task Force. USCG has been 
addressing insider threats since 2008, and, in 2012, installed 
technologies designed to assist in addressing insider threats on 
Classified computer systems. USCG's technical detection capability--
staffed by engineers and analysts--spans all Classified USCG computers, 
fuses information from other organizations, and has constant oversight.
    In addition to the deployment of monitoring technology to all of 
our Classified networks, we have implemented the capability to collect, 
fuse, correlate, and analyze information from various data sources in 
order to identify suspected insider threats. This capability has 
constant oversight by our General Counsel, Privacy Officer, and Officer 
for Civil Rights and Civil Liberties in order to ensure the protection 
of privacy, civil rights, and civil liberties of all of our personnel.
    We strongly believe that in order to prevent insider threats from 
materializing through early intervention, we must educate and train our 
workforce to ``See Something, Say Something.'' We are in the process of 
providing our workforce with comprehensive awareness training to better 
sensitize our workforce to identify and report anomalous behavior 
indicative of an insider threat. This training, which will serve as a 
force multiplier for our program, enables the detection of potential 
threats that cannot be discovered through any technological solution 
available today. Earlier detection will allow for earlier mitigation of 
potential threats and we believe this is a key component of our 
program.
    The Insider Threat Program complements the Department's 
counterintelligence and security missions. In recognition of this, the 
Department is currently considering expanding the scope of our program 
to include preventing, deterring, detecting, and mitigating other 
threats posed by insiders such as workplace violence, criminal 
activity, and misconduct.
                               conclusion
    Chairman King, Ranking Member Higgins, and Members of the 
committee, we thank you again for the opportunity to appear before you 
today to discuss these important matters. We look forward to answering 
your questions.

    Mr. King. Thank you, General. Thank you really for the 
outstanding job you have done and the dedication you have shown 
to this job. It is very much appreciated.
    Colonel McComb was appointed to the position of chief 
security officer for the U.S. Department of Homeland Security 
just over 3 months ago, on April 3, 2016. Most recently, he 
served as the director of the Leased Facilities Protection 
Directorate at the Pentagon Force Protection Agency. Colonel 
McComb served over 27 years in the United States Air Force as a 
security forces officer, from which he retired as a colonel.
    We are privileged to have you here today, and you are 
recognized for your testimony.

 STATEMENT OF RICHARD D. MC COMB, CHIEF SECURITY OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Colonel McComb. Chairman King, Ranking Member Higgins, good 
morning, and thank you for the opportunity to provide 
Department of Homeland Security's Insider Threat Program.
    I have the opportunity to lead the dedicated men and women 
who make up the Office of Chief Security Officer. My office is 
an element under the Department's Management Directorate and I 
report to the under secretary for management, Mr. Russ Deyo.
    However, in my capacity as a senior insider threat official 
for the Department of Homeland Security, under the provisions 
of Executive Order 13587, I execute the Insider Threat Program 
on behalf of and under the guidance and direction of Under 
Secretary Frank Taylor, as the under secretary for intelligence 
and analysis.
    As a chief security officer, I am responsible for DHS-wide 
related programs affecting more than the 235,000 employees that 
make up the Department, including the areas of personal 
security, physical security, investigations, administrative 
security, identity management, special access programs, 
security training awareness, and the Department's Insider 
Threat Program.
    Finally, I serve as the chairman for the Department's Chief 
Security Officer Council and have an opportunity to lead, with 
my other counterparts in the DHS components, a highly 
collaborative security program that is designed to safeguard 
the Department's people, property, and information.
    The DHS Insider Threat Program seeks to deter, detect, and 
mitigate threats posed by trusted insiders. The program uses 
technology that is generally called user activity monitoring. 
This technology puts effective capability behind the warning 
banners which for years have told users they were being subject 
to such monitoring. The detection thresholds are tailorable to 
specific types of users and to specific types of behaviors.
    This is important, that for the first time the activity of 
tens of thousands of users on IT systems can actually be 
monitored via automation and, when combined with information 
from other data sources, present a total threat picture. When 
automated analysis is added in, the software can alert analysts 
to events that have a high threat potential and minimize 
wasteful false positives.
    While this technology is a critical facet of our program, 
it also relies on aggressive training and awareness for the 
work force to enable and empower them to recognize aberrant 
behavior and to include the tools to responsibly report it when 
they see something.
    I want to emphasize that the Insider Threat Program is part 
of the security continuum, one of the elements in a series of 
steps and programs to mitigate the full spectrum of risks posed 
by employees, contractors, and other officials affiliated with 
the DHS, as well as external actors who may threaten the 
Department from outside.
    As presently structured, our Insider Threat Program focuses 
on the protection of Classified information as it was 
originally driven by the Manning and Snowden cases. However, 
DHS, as well as DOD and the intelligence community, are taking 
a more expansive view of the threat to include workplace 
violence, fraud, waste and abuse, and other potential work 
force corruption.
    The Office of the Chief Security Officer and the 
authorities exercised by it uniquely situate the organization 
to execute this program, connect the necessary dots, and detect 
and prevent such threats.
    DHS is currently monitoring 2 or 3 IT systems. We are in 
the process of ensuring that our insider threat training 
awareness program meets 508 compliance to ensure accessibility 
by those with disabilities. Once completed, this training will 
be posted on our Performance and Learning Management System to 
enable the work force to meet the initial and annual training 
requirements.
    As was indicated earlier, resources are key to the 
maturation of this program. Currently, we are learning what we 
can expect to discover on Classified systems, but Unclassified 
systems will present much broader risk, with far more users, 
and will require greater analysis and follow-on investigative 
capabilities. We have programmed for funding and support of 
this expansion consistent with the current proposed insider 
threat legislation.
    In conclusion, access control to Federal facilities, 
information by Federal employees and contractors, and a safe, 
secure workplace are Departmental priorities and one in which 
the Office of the Chief Security Officer has made significant 
progress. However, there is more work to be done, and the 
Office of the Chief Security Officer, in coordination with the 
under secretary for intelligence and analysis and the DHS 
components, has charted a clear course to further mitigate the 
concern of the insider threat.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions, sir.
    Mr. King. Colonel, thank you.
    Our next witness is Rear Admiral Robert Hayes, who just 
recently took on the mantle for Coast Guard intelligence 
activities, assuming the post of assistant commandant for 
intelligence just earlier this month. Prior to this command, 
Admiral Hayes served as chief of plans and policy for the 
assistant commandant for intelligence and criminal 
investigations. Prior to that, served as deputy director of the 
Coast Guard's Counterintelligence Service.
    He graduated from the Coast Guard Academy in 1988 and 
earned a master's in strategic intelligence with the National 
Intelligence University in 1993.
    Admiral Hayes, good to have you here today. I look forward 
to your testimony. Thank you.

    STATEMENT OF ROBERT P. HAYES, ASSISTANT COMMANDANT FOR 
  INTELLIGENCE, U.S. COAST GUARD, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Admiral Hayes. Thank you, Chairman King. Good morning, sir. 
Good morning, Ranking Member Higgins and other distinguished 
Members of the committee.
    I am honored to be here today to discuss the Coast Guard's 
counterintelligence and insider threat programs. It is a 
pleasure to be alongside my Department of Homeland Security 
colleagues, Under Secretary Taylor and Chief Security Officer 
McComb. I echo Under Secretary Taylor's assessment of the range 
of intelligence collection threats that face the Department and 
the Coast Guard.
    As the world's premier multimission maritime service 
responsible for the safety, security, and stewardship of the 
Nation's waters, the Coast Guard offers a unique and enduring 
value proposition to the Department of Homeland Security and 
the American public. At all times a military service and branch 
of the Armed Forces, a Federal law enforcement agency, a 
regulatory body, a first responder, and a member of the U.S. 
intelligence community, the Coast Guard is under high demand as 
a global instrument of National security.
    One of the key elements of the Coast Guard's intelligence 
enterprise is our counterintelligence program. In 2004, the 
Coast Guard began the initial development of its 
counterintelligence capability. In the early stages of 
development, counterintelligence activities were primarily 
defensive in nature, providing support to Coast Guard personnel 
in units either hosting foreign visitors or traveling overseas.
    Given the Coast Guard's extensive international engagement 
with maritime stakeholders, establishing counterintelligence 
capability was crucial to protecting Coast Guard personnel from 
foreign intelligence collection attempts and served as the 
cornerstone for further development of other 
counterintelligence activities.
    Today, the Coast Guard's Counterintelligence Service 
protects our work force through detection, deterrence, and 
neutralization of foreign intelligence threats by leveraging 
authorities and capabilities to provide the full spectrum of 
counterintelligence support. We do this through many 
activities, including counterintelligence investigations, 
operations, collections, and analysis. These activities shield 
Coast Guard operations, personnel, systems, facilities, and 
information from the intelligence activities of not only 
foreign powers, but terrorist groups and criminal 
organizations, as Under Secretary Taylor mentioned.
    In addition to the counterintelligence mission, the 
Counterintelligence Service manages and executes the Coast 
Guard's Insider Threat Program, which began formally addressing 
insider threats in 2008. In 2012, the Coast Guard officially 
chartered an Insider Threat Working Group. The 
Counterintelligence Service staffed a small team to address 
insider threat requirements and began installation of activity-
monitoring technologies designed to detect insider threats on 
Classified computer systems.
    Additionally, the director of the Coast Guard 
Counterintelligence Service was appointed as the senior 
official for the Coast Guard Insider Threat Program. A National 
Insider Threat Task Force assessment of the Coast Guard's 
Insider Threat Program resulted in the Coast Guard becoming the 
first insider threat program in the Executive branch to achieve 
full operating capability earlier this year. The National 
Insider Threat Task Force also refers to the Coast Guard's 
Insider Threat Program as the gold standard for small 
organizations.
    The Coast Guard's Insider Threat Program has transitioned 
from seeking help from partner agencies to providing it. We 
have advised the Department of Defense on the conduct of 
technical insider threat detection on Classified computer 
systems at sea; we have compared and contrasted best practices 
with other departments; and we have provided best practices to 
Executive branch agencies, as well as some combatant commands.
    Our technical detection capability, which is staffed by 
engineers and analysts, spans all Classified Coast Guard 
computer systems in its continuous oversight from Coast Guard 
leadership and legal counsel. Since inception, we have 
identified or supported the detection of multiple threats. The 
overwhelming majority of these detections have been non-
malicious types of unauthorized disclosures, password sharing, 
and system administrator privilege abuse. Despite the absence 
of harmful attacks, we must remain vigilant by continuing to 
mature the insider threat and counterintelligence program.
    Thank you for inviting me to discuss the Coast Guard's 
counterintelligence and insider threat programs, and I look 
forward to your questions, sir.
    Mr. King. Thank you, Admiral.
    I will keep my questions brief prior to the closed session.
    Colonel McComb, there have been two very public cases of 
employees arrested with guns at work in the last month that I 
mentioned in my opening statement. What is your overall 
assessment of security at the DHS facilities and your ability 
to identify insider threats that could pose a physical threat?
    Colonel McComb. Thank you, sir.
    As you may or may not know, the DHS headquarters is a level 
5 facility; that is, we meet the standards of the Interagency 
Security Committee, which is the highest level with regard to 
Federal facilities. We meet those standards at the DHS 
headquarters in the Nebraska Avenue complex, and we are 
implementing enhanced security measures which are above and 
beyond the basic measures required by those standards.
    As you alluded to, during those enhanced security measures, 
which includes random screening of employees, we did detect 
individuals that were attempting to bring unauthorized items 
into the DHS headquarters. They are currently under 
investigation, but in both instances we have not detected 
anything that would lead us to believe that these individuals 
were planning any sort of workplace violence or conspiring with 
others to commit workplace violence.
    We take security very seriously. I think we do a great job, 
and I believe our enhanced security measures worked in these 
cases.
    In addition to the enhanced security measures that are 
being employed at this location, we have taken on a large 
employee education effort, which includes townhall meetings, 
communications to the employees to understand that if they see 
something unusual to report it, and including training to 
include insider threat training and also emergency management 
training for how to respond in certain cases.
    So the Department is very committed to ensuring that folks 
are protected within our headquarters, and the DHS complex at 
Nebraska Avenue complex is no exception to that rule, sir.
    Mr. King. Thank you.
    I guess I will ask this across the board. Is there a 
renewed sense of urgency in the Department and the 
administration to expedite the implementation of continuous 
evaluation programs in the wake of the OPM breach?
    Colonel McComb. Sir, the DNI, the Director of National 
Intelligence, has the lead for the continuous evaluation. As 
you may or may not know, that program will be automated. It is 
yet to happen, but when it does, there will be 7 authoritative 
databases that individuals that have National security 
determinations or possess Secret or above clearances will be 
vetted against those either on a daily basis or monthly basis, 
dependent upon the particular data base.
    If an individual indicates a hit from one of those 
databases, then the Department of Homeland Security, along with 
all of the other departments that participate in this program, 
will be required to follow that lead, vet that individual, and 
determine whether it has implication on their ability to 
perform their job and/or have access to National security 
information.
    There is a time line that 5 percent of the tier 5, that is, 
those with TS/SCI clearances, must be in a continuous 
evaluation program by September 2017. We in DHS have already 
initiated the work to ensure that our IT systems allow us to 
receive those alerts from the DNI automated program. We will do 
a pilot program this year to start doing some of those 
continuous evaluations on our, once again, most sensitive 
population, those with TS/SCI clearances.
    Mr. King. OK. Anybody else want to comment on that? OK, 
thank you.
    Ranking Member Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Taylor, I just want to continue this line of 
questioning on the issue of Homeland Security headquarters. For 
the second time in a month, an employee has been arrested for 
taking a handgun onto the secured grounds of the Department of 
Homeland Security at their headquarters here in Washington, DC. 
According to police records, the accused had a 9-millimeter 
handgun in a leather handbag while inside the complex. The 
accused is a contractor who works in the information technology 
for the agency. The weapon appeared to be fully functional, 
capable of being fired by a single hand, and designed to expel 
a projectile by the action of an explosive.
    This arrest comes about a month after the arrest of another 
individual, another Homeland Security employee accused of 
carrying a firearm inside agency headquarters. Court filings 
from the investigators indicated that the accused, the second 
individual, was found with a loaded .22-caliber handgun 
carrying 5 hollow-point bullets in June.
    In that same court filing, it said that the agent was, 
``probable cause to believe that the accused was conspiring 
with another to commit work force violence, and more 
particularly, may have been conspiring or planning to commit 
violence against a senior DHS official in the building.''
    What can you tell us?
    General Taylor. Sir, I will ask CSO McComb to comment 
further, but I believe it probably most appropriate to do this 
in the closed session as opposed to this open session to 
respond to that question.
    Mr. Higgins. OK.
    Colonel McComb. Sir, what I would indicate is that, as you 
stated, you are correct in that there were two individuals that 
were discovered during our random screening processes as part 
of our enhanced security measures at the Nebraska Avenue 
complex, were discovered with weapons. The investigation is on-
going, but as I indicated earlier, at this point there is no 
indication that either of these individuals were planning or 
conspiring to commit workplace violence. Both of these 
individuals recently had been previously cleared. As Under 
Secretary Taylor indicated, we certainly would be happy to 
provide more details of both of those events in the closed 
session.
    Mr. Higgins. I have no further questions.
    Mr. King. Mr. Katko, the gentleman from New York.
    Mr. Katko. Thank you, Mr. Chairman.
    General, it is good to see you again, Colonel McComb, and 
Rear Admiral Hayes.
    Quick question for you. As you may know, I think you know, 
I have direct oversight over the Transportation Security 
Administration through my subcommittee. Is it fair to say that 
in your capacities, General and Colonel, that you consult TSA 
on a regular basis regarding intelligence matters and security 
matters?
    General Taylor. Yes, sir, that is correct. Every day.
    Mr. Katko. OK, great. So just a couple of quick questions 
with respect to the insider threat at TSA facilities and 
airports.
    I know you are well aware of the incident about a year-and-
a-half ago where a fellow got off a plane in LaGuardia Airport 
with a backpack full of guns, and it turned out that an 
employee at the airport in Atlanta had carried those backpacks 
through the secure area using a SIDA badge and gave the 
backpack to the fellow and he brought it up to New York. It 
turns out that is about his tenth trip. The backpack in 
question had 16 guns, 9 millimeters and assault rifles, most of 
which were loaded. Obviously, that is a major concern about the 
insider threat from employees at airports.
    Also, more recently, the insider threat at airports 
manifested with the Dallas-Fort Worth incident in a major drug 
trafficking case, which in the public record included 
invitations by one of the employees at the airport to bring 
anything through the access control areas, including bombs, if 
people wanted to.
    With the threat from ISIS being what it is, and their 
desire to take down planes and taking credit for two planes 
that have been bombed in the last 8 months and perhaps even a 
third with EgyptAir, we don't know yet, it is a very real 
concern for me and it is something that I can't get over and I 
will continue to pursue.
    The concerns are manifested for this hearing in two ways. 
One is the safety and security of the airports in the United 
States and the safety and security at last point of departure 
at airports worldwide.
    With respect to the safety and security of the airports in 
the United States, are you aware of any changes in procedures 
that have been undertaken by TSA and/or Homeland Security with 
respect to the vetting of employees at airports; not just TSA 
employees, but vetting the employees at airports to ensuring 
that the insider threat is minimized?
    No. 2, what do you think about beefing up the access 
controls for those employees?
    General Taylor. Thank you for your question, Congressman. 
Some of this we would probably want to discuss in the closed 
hearing because of the sensitive nature of it.
    But since the event in Atlanta, TSA has been working with 
the airport authorities and the Federal security directors to 
tighten up significantly the security in the sterile area, 
particularly for employees that have access under SIDA badges. 
We can speak to you about how those changes have occurred over 
time.
    We are very much concerned about security in the open area, 
before the secure and sterile area, and we have communicated 
with airport operators and our Federal security directors 
continuously since Istanbul about that concern. We issued a 
joint NCTC, FBI, DHS joint intelligence bulletin around 
tactics, techniques, and procedures that we noted from Istanbul 
that we think will be valuable in planning security in the 
public areas of the airport.
    It is a huge problem, we recognize that, and we will be 
consulting in the next month across the industry in terms of 
best practices for keeping the area open and welcoming, but 
also providing the layers of security that are necessary to 
protect the public that is there.
    Mr. Katko. Thank you.
    Colonel, do you want to add anything or does that 
adequately cover it?
    Colonel McComb. The only thing I would add, sir, is that 
TSA does have a robust insider threat program. As we will talk 
in more detail in the closed session, they are very concerned 
about the areas that you discussed, and that will be a very 
prominent part of what they monitor as we continue to roll out 
and mature the Insider Threat Program within the Department of 
Homeland Security.
    Mr. Katko. If the Chairman will just indulge me one more 
moment.
    Mr. King. Sure.
    Mr. Katko. Thank you.
    Just switching gears briefly, I am vitally concerned about 
developing facts with respect to opening the airports in Cuba. 
My concern is, quite frankly, that we are sprinting to the 
starting line, but we do not know where the finish line is, and 
I think it is a recipe for disaster. One of the biggest 
concerns I have is the insider threat at the airports in Cuba 
and the lack of appropriate facilities for those airports.
    The Homeland Security Committee--Homeland Security I know 
is well aware of my concerns, but I just want to state them 
again on the record, Colonel and General. It is incredibly 
important that we do a thorough job evaluating those airports 
before we open up those routes. I know everyone is licking 
their chops from a financial standpoint and I know there may be 
some pressure from the administration because the President 
wants this done before he leaves office, but I urge you in the 
strongest words possible, based on everything I know, and we 
can talk more about that in a secure setting, that it is a very 
serious security issue.
    One thing I can say on the public record is, when you don't 
even know how the Cuban officials screen their employees and 
they won't tell you how they do it and you don't know such 
basically things as that, I would strongly urge you that if you 
really are serious about the insider threat and you are very 
serious about keeping the skies safe, that you look at with a 
very focused eye on what is going on in Cuba before you open up 
those airports, with 20 direct flights a day to New York and 
possibly direct flights to Washington, which are the two main 
targets for terrorists.
    General Taylor. Yes, sir. I think we can have a further 
discussion in the closed session about those challenges with 
those airports.
    But for the record, DHS takes aviation security very 
seriously, particularly any aviation operating directly into 
the United States. We recognize the risk and want to make sure 
we have done a thorough job of assessing both the security at 
the airport and the security of the aircraft before they arrive 
here.
    Mr. Katko. Thank you very much. I yield back.
    Mr. King. The gentleman yields.
    The gentlelady from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for this combined committee, and thank the witnesses, as 
well, for your presence here today.
    Let me say that in the backdrop of the memorial yesterday 
that I attended in my home State for the fallen officers, let 
me again offer my deepest sympathy to the Dallas Police 
Department and to the families who have lost loved ones through 
actions of terror and certainly through our recent incidences 
in our Nation that have befallen many families from many 
different States and jurisdictions.
    That the climate that we are in calls for greater 
attention. Maybe as we speak we are not poignantly talking 
about the immediacy of loss of life, but cybersecurity 
incidences and intrusion to places where individuals should not 
go can certainly bring about an enormous amount of danger and 
possible injury and death.
    I would like to put into the record--I am not sure if this 
is in the record--``Another Employee With A Gun Arrested At 
Homeland Security Headquarters, A Man Caught During Random 
Employee Screening.'' I would ask unanimous consent to put this 
into the record.
    Mr. King. We have already discussed that, but no objection.
    [The information referred to follows:]
              Article Submitted by Hon. Sheila Jackson Lee
 Another Employee With a Gun Arrested at Homeland Security Headquarters
              man caught during random employee screening
By Scott MacFarlane
            http://www.nbcwashington.com/investigations/Another-
                    Employee-With-A-Gun-Arrested-At-Homeland-Security-
                    Headquarters-386519051.html
    For the second time in a month, an employee has been arrested for 
taking a handgun on to the secured grounds of U.S. Department of 
Homeland Security headquarters in Washington, D.C.
    According to police and court records obtained by the News4 I-Team, 
security officers arrested Thomas Pressley of Woodbridge, Virginia, 
Monday, accusing him of carrying a 9-millimeter handgun in a leather 
handbag while inside the complex.
Feds Request Stay Away Order for DHS Employee Arrested
    Pressley, a contractor who works in IT for the agency, has been 
ordered jailed in D.C. until his next scheduled court appearance 
Friday. He is charged with carrying a pistol without a license. Court 
filings did not detail what, if any, plea has been entered in the case 
by Pressley. His attorney did not immediately return requests for 
comment from the I-Team.
    Federal government records specify the U.S. Department of Homeland 
Security headquarters complex on Nebraska Avenue in northwest 
Washington is among the most secured government facilities in the 
United States, rivaling the security apparatus of the White House and 
the Pentagon.
Feds Investigating Whether Employee Was Plotting Attack on DHS 
        Officials
    ``The weapon appeared to be fully functional, capable of being 
fired by a single hand, and designed to expel a projectile by the 
action of an explosive,'' according to a police report.
    The report also said, ``The weapon also had a barrel length of less 
than 12 inches.''
DHS Employee Found With Gun at HQ
    Agency security located the handgun during a random employee 
screening, the report said.
    ``As a result of enhanced security and screening measures at the 
NAC, security officers detained a contract employee yesterday after 
they discovered a concealed firearm during screening,'' a DHS spokesman 
said. ``The contract employee was subsequently arrested.
    ``While we currently have no information to suggest that this 
individual sought to cause harm, as discussed at a recent employee town 
hall, the safety of employees and visitors to DHS facilities is a top 
priority. The enhanced security procedures discussed at that meeting 
remain in effect, including increased levels of screening of employees 
entering the NAC. And because we won't hesitate to take every 
appropriate measure to protect our employees, our security 
professionals are evaluating what additional security enhancements may 
be necessary.''
    Pressley's arrest comes about a month after the arrest of Jonathan 
Wienke, another Homeland Security employee accused of carrying a 
firearm inside agency headquarters. Court filings from investigators 
said Wienke was found with a loaded .22-caliber handgun, carrying five 
hollow point bullets in June.
    Wienke pleaded not guilty to a gun charge and is awaiting further 
court proceedings in the case.
    But Wienke had more than a gun when he was searched on June 9, 
according to a request for court permission to raid Wienke's home. A 
federal agent and security officers also found Wienke had a knife, 
pepper spray, thermal imaging equipment and radio devices.
    And the feds said in the court filing that Wienke was found in his 
workspace, which is in close proximity to a meeting of senior agency 
officials the day of his arrest--and that Wienke was aware of the 
meeting.
    In the same court filing, the agent said there was ``probable cause 
to believe Jonathan Wienke was conspiring with another to commit 
workplace violence and, more particularly, may have been conspiring or 
planning to commit violence against the senior DHS officials in the 
building.''

    Ms. Jackson Lee. All right. Put the story at least into the 
record. The reason I say that is because there are a number of 
intrusions that I am concerned about and I want to discuss some 
legislation that I have introduced as well.
    But let me pointedly go to two entities, nations that are 
known as our chief threats to intelligence assets of the United 
States, and this would be to you, Mr. Secretary, Secretary 
Taylor. How can Russia or China use the OPM breach data with 
the Ashley Madison breach of information to compromise 
security?
    General Taylor. Ma'am, I would prefer we respond to that 
question in the closed session. I think we can be more full in 
our answer.
    The threat from cybersecurity is a significant threat and 
the information and data that is collected through cyber 
intrusion means present a significant threat to our country. 
But the specifics, I would prefer if we could answer that in 
the closed session.
    Ms. Jackson Lee. OK. Well, let me just get a general 
assessment then, because I am not sure when we will designate a 
closed session.
    Mr. King. Right after this, as soon as you are finished, we 
are going downstairs.
    Ms. Jackson Lee. OK. Then let me just make my own comments 
and say the great concern that I have of that data being out is 
what I hope that we will have a focused perspective on--and I 
assume that you can answer--we will have a focused effort on 
that.
    General Taylor. We have 110 percent focused effort on that 
activity and the potential implications of that activity for 
the National security.
    Ms. Jackson Lee. Very good.
    Let me then go to some legislation that I think had to do 
or reflects the shooter that was at the Navy Yard and Snowden. 
As I understand, they were vetted for security by the same 
contractor.
    Are you able to comment on any firewalls that are being put 
on outside contractors, any extensive review on contractors who 
have responsibilities for vetting and where the Government 
relies upon them? Are these contracts periodic? Do people get 
10-year contracts? Are these people wedded in their positions, 
can't be taken out? Are they lax? What is happening?
    I think that Snowden has to be one of the most severe and 
outrageous responses or actions that we had in security and he 
was vetted and he was engaged in, I think, at too high a level 
of the Nation's security data, intelligence data.
    Colonel McComb. Ma'am, kind of bottom-line up-front is that 
the vetting of contractors and the companies that have 
contractors are done in accordance with the Federal 
Investigative Standards. At the interagency level, the 
Performance Accountability Council for suitability, security 
clearances, and credentialing is looking at that issue very 
hard.
    All of the companies who are on Classified contracts must 
meet the National Industrial Security Program standards, which 
requires that they have a facility security officer, they run 
through the background investigations of the individuals who 
will be working those contracts, whether they be for an 
investigative purposes or if they are doing some other level of 
work, whether it be on the IT systems, et cetera.
    We in DHS look at those contractors from a fitness 
perspective, once again applying the OPM standards. So we look 
at that very hard. Contracts are held to the standards that are 
in the performance work statement. Where there are issues or 
breaches of those, then contracting action can be taken against 
those individuals, those companies, to include termination on 
behalf of the Government based on those breaches.
    We continue to monitor that along with the contracting 
folks. The other thing I would add is, with the cyber hygiene 
initiative in the Department of Homeland Security we are 
ensuring that all information that is handled through contracts 
is kept at the high security level, which is above the standard 
required for the Federal Government, to ensure that it is 
protected at the appropriate levels and that it is not 
potentially endangered for unauthorized access.
    Ms. Jackson Lee. Can I get just a quick follow-up, Mr. 
Chairman, just very quickly?
    Mr. Snowden was lodged somewhere in the back corners of a 
Hawaii office building. Do you have the responsibility--and you 
are one of the intelligence components, I understand that--but 
the monitoring? You may have the company and then you have 
these individual actors under the company, maybe many. Is there 
a mode of monitoring those individuals?
    Last, if our cyber system is attacked, meaning what we 
utilize here in the Government, are we prepared? That may be an 
answer for a back-up system somewhere.
    General Taylor. Ma'am, I will try to answer your question.
    First, our insider threat monitoring will monitor everyone 
that has access to our Classified systems--contractor, 
Government employee, regardless--and ultimately individuals 
that are operating on our Unclassified system that may or may 
not have a security clearance.
    Cyber hygiene has been a real focus of Secretary Johnson 
with regard to applying the National programs division 
cybersecurity initiatives across our Government and ensuring 
that they are robustly applied and effectively implemented.
    So it has been a major focus for us. I can't speak to the 
issue of back-up. I am not technically qualified to understand 
that system. But would certainly find the answer to that 
question for you and get back to you, ma'am.
    Ms. Jackson Lee. I would appreciate it. Thank you.
    Did you want to answer?
    Colonel McComb. No, ma'am.
    Ms. Jackson Lee. All right.
    Thank you all for your testimony.
    Mr. Chairman, may I ask, I won't pursue the back-up system. 
Maybe I will get that at another time.
    Mr. King. OK. We have to start going downstairs soon.
    Ms. Jackson Lee. Yes. Let me ask unanimous consent to put 
in the record, Bloomberg News, ``Edward Snowden and the NSA: A 
Lesson About Insider Threats.'' I ask unanimous consent.
    Mr. King. Without objection.
    [The information referred to follows:]
              Article Submitted by Hon. Sheila Jackson Lee
       Edward Snowden and the NSA: A Lesson About Insider Threats
Vijay Basani, Bloomberg News, July 3, 2013
            https://www.bloomberg.com/news/articles/2013-07-03/edward-
                    snowden-and-the-nsa-a-lesson-about-insider-threats
    In all the mysteries surrounding the Edward Snowden affair, there's 
one that hasn't received much attention: Why didn't the NSA, one of the 
most technologically sophisticated organizations on the planet, have a 
way to detect that Snowden was downloading thousands of documents?
    The corollary question every chief executive should ask of his or 
her top security officer: ``Does our organization have a way to detect 
unauthorized access to our data?'' According to the recent SANS 2013 
Critical Security Controls survey, less than 10 percent of companies 
actually have proactive monitoring of security controls, the area that 
governs unauthorized access.
    Employees and contractors with boundless privilege to access 
sensitive data present greater risk of intentionally, accidentally, or 
indirectly misusing that privilege and potentially stealing, deleting, 
or modifying data. Human nature is the weakest link when it comes to 
the intersection of people, process, and technology--the three tenants 
of security--and the Edward Snowden blunder is a perfect example.
    According to Michael Hayden, former director of the NSA and the 
CIA, no more than 22 personnel at NSA were to have access to the highly 
Classified data, which included about 1 billion-plus records per day. 
One can assume that these individuals should be internal analysts who 
have gone through extensive background checks, who are very experienced 
in dealing with highly confidential data, and who are employees of NSA. 
We can also assume that these individuals have special privileges to 
access these data in a highly secure manner.
    I have no special knowledge of the NSA's internal workings, but it 
appears that somehow this protocol was not followed, and Snowden, a 
contractor, was given access to this information with no mandatory 
monitoring, a clear violation of controls and a breakdown of process.
    While technologies do exist to enforce access rights, privileges, 
and policies, the technology is only as good as the people and 
processes that are put into place. If people who manage these 
technologies decide to circumvent the technology's ability to enforce 
policies, or make an exception, or ignore violations, or do not instill 
sufficient supervisory mechanisms, then the technology will fail.
    Another issue to be looked at from a technological perspective is 
the complete lack of continuous monitoring and auditing of the users, 
process, and security controls in a unified fashion by the NSA.
    If someone at the NSA were monitoring, analyzing, and auditing all 
network, user, and system activity, policy enforcements, etc., to 
identify abnormal behavior and usage patterns, most likely Snowden's 
access to sensitive data, the connection of removable media and copying 
of these data would have drawn red flags. It is possible that the data 
and signals from individual products, such as a USB monitoring solution 
or a database activity monitoring system, would have captured these 
data, but the individual administrators who were looking at each data 
point in isolation were not able to connect the dots. If the NSA had 
adopted technology that pulled all information into a single database 
and automatically correlated the data in a unified fashion, it would 
have detected a potential breach or policy violation.
    Unfortunately the Snowden situation of privileged access to 
sensitive data with lack of sufficient checks and balances is an all-
too-familiar story in the private sector. Executive management tends to 
have a checkbox mentality when it comes to security (i.e. do what is 
absolutely necessary to pass a government or industry mandate) or lack 
the knowledge to realize that their intellectual property and business 
is at risk for lack of sufficient security controls.
    With traditional network perimeters becoming increasingly porous 
with the introduction of BYOD, mobile devices, and cloud 
infrastructure, organizations need to implement security best 
practices, such as SANS 20 Critical Security Controls, to protect 
against cyber attacks and espionage. This requires resources and budget 
commitment from C-level management.
    The Snowden debacle should be a wake-up call in both the public and 
private sectors to adopt an approach that provides complete awareness 
and continuous, automated monitoring of critical security controls to 
reduce real risk and real threats to their business.

    Ms. Jackson Lee. I yield back.
    Mr. King. I ask unanimous consent that the remainder of the 
hearing be closed to the public under House Rule XI, clause 
2(g)(2), because disclosure of testimony, evidence, or other 
matters would endanger National security or compromise 
sensitive law enforcement information.
    Is there any objection to the motion to close the hearing?
    Hearing none, the motion is agreed to, and the subcommittee 
will recess briefly to move to a more secure location to 
continue its business. The hearing will reconvene in that 
location in 15 minutes.
    [Whereupon, at 10:50 a.m., the subcommittee proceeded to 
closed session and subsequently adjourned at 11:27 p.m.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
